<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Transportation and Housing and Urban 
Development, and Related Agencies for inclusion in the record. 
The submitted materials relate to the fiscal year 2013 budget 
request for programs within the subcommittee's jurisdiction.]
 Prepared Statement of the American Indian Higher Education Consortium
    This statement focuses on the Department of Housing and Urban 
Development (HUD).
    On behalf of the Nation's 37 Tribal Colleges and Universities 
(TCUs), which compose the American Indian Higher Education Consortium 
(AIHEC), thank you for the opportunity to express our views and 
recommendations regarding the Department of Housing and Urban 
Development Tribal Colleges and Universities' Program (TCUP) for fiscal 
year 2013.

                          SUMMARY OF REQUESTS

    Department of Housing and Urban Development (HUD).--Beginning in 
fiscal year 2001, a TCU initiative had been administered by the HUD--
Office of University Partnerships as part of the University Community 
Fund. This competitive grants program enabled TCUs to build, expand, 
renovate, and equip their facilities that are available to, and used 
by, their respective reservation communities. We strongly urge the 
subcommittee to reject the recommendation included in the President's 
fiscal year 2013 budget request and to support the goals of Executive 
Order 13592 to strengthen TCUs by funding the competitive HUD-TCU 
Program, at the fiscal year 2010 level of $5.435 million. Additionally, 
we request that language be included to permit that a small portion of 
the funds appropriated may be used to provide technical assistance to 
institutions eligible to participate in this competitive grants 
program.

        TCU SHOESTRING BUDGETS: ``DOING SO MUCH WITH SO LITTLE''

    Tribal Colleges and Universities are accredited by independent, 
regional accreditation agencies and like all United States institutions 
of higher education, must periodically undergo stringent performance 
reviews to retain their accreditation status. TCUs fulfill additional 
roles within their respective reservation communities functioning as 
community centers, libraries, tribal archives, career and business 
centers, economic development centers, public meeting places, and child 
and elder care centers. Each TCU is committed to improving the lives of 
its students through higher education and to moving American Indians 
toward self-sufficiency.
    TCUs have advanced American Indian higher education significantly 
since we first began four decades ago, but many challenges remain. 
Tribal Colleges and Universities are perennially underfunded. In fact, 
TCUs are the most poorly funded institutions of higher education in the 
country.
    The tribal governments that have chartered TCUs are not among the 
handful of wealthy gaming tribes located near major urban areas. 
Rather, they are some of the poorest governments in the Nation. Tribal 
Colleges are home to some of the poorest counties in America.
    The Federal Government, despite its trust responsibility and treaty 
obligations, has never fully funded the principal institutional 
operating budgets, authorized under the Tribally Controlled Colleges 
and Universities Assistance Act of 1978. The Tribal College Act 
authorizes basic institutional operations funding on a per Indian 
student basis; yet the funds are not appropriated in the same manner. 
In fiscal year 2011, Congress proposed level funding for TCU 
institutional operating grants and appropriated the communal pot of 
funds at the same level as fiscal year 2010. However, due to a spike in 
enrollments at the TCUs of over 1,660 Indian students in a single year, 
the TCUs are receiving funds at $549 less per Indian student toward 
their institutional operating budgets. Fully funding TCUs' operating 
budgets would require $8,000 per Indian student. TCUs are currently 
operating at $5,235 per Indian student. By contrast, Howard University 
located in the District of Columbia, the only other Minority-Serving 
Institution to receive institutional operations funding from the 
Federal Government, is funded at approximately $19,000 per student. We 
are by no means suggesting that Howard University does not need this 
funding, only that the TCUs' operating budgets are clearly grossly 
underfunded.
    While TCUs do seek funding from their respective State legislatures 
for the non-Indian State-resident students (sometimes referred to as 
``non-beneficiary'' students) that account for 20 percent of their 
enrollments, successes have been at best inconsistent. TCUs are 
accredited by the same regional agencies that accredit mainstream 
institutions, yet they have to continually advocate for basic operating 
support for their non-Indian State students within their respective 
State legislatures. If these non-beneficiary students attended any 
other public institution in the State, the State would provide that 
institution with ongoing funding toward its operations.
    TCUs effectively blend traditional teachings with conventional 
postsecondary curricula. They have developed innovative ways to address 
the needs of tribal populations and are overcoming long-standing 
barriers to success in higher education for American Indians. Since the 
first TCU was established on the Navajo Nation in 1968, these vital 
institutions have come to represent the most significant development in 
the history of American Indian higher education, providing access to, 
and promoting achievement among, students who might otherwise never 
have known postsecondary education success.
    Tribal Colleges and Universities provide access to higher education 
for American Indians and others living in some of the Nation's most 
rural and economically depressed areas. According to U.S. Census 
data\1\, the annual per capita income of the U.S. population is 
$26,059. By contrast, the annual per capita income of American Indians 
is $15,671 or about 40 percent less. In addition to serving their 
student populations, TCUs offer a variety of much needed community 
outreach programs.
---------------------------------------------------------------------------
    \1\ Source: U.S. Census Bureau, 2010 American Community Survey.
---------------------------------------------------------------------------
    Inadequate funding has left many TCUs with no choice but to 
continue to operate under severely distressed conditions. The need for 
HUD-Tribal Colleges and Universities Program (TCUP) funding remains 
urgent for construction, renovation, improvement, and maintenance of 
key TCU facilities, such as basic and advanced science laboratories, 
computer labs, and increasingly important student housing, day care 
centers, and community services facilities. Although the situation has 
greatly improved at many TCUs in the past several years, some TCUs 
still operate--at least partially--in donated and temporary buildings. 
Few have dormitories, even fewer have student health centers and only 
one TCU has a science research laboratory. At Sitting Bull College in 
Fort Yates, North Dakota, competitively awarded HUD grant funds have 
been leveraged to expand the college's usable space from 12,000 square 
feet (sf) to 100,000 sf over 10 years. Additionally, HUD grant dollars 
have been used to address three leaking roofs that creating a mold 
problem in the area referred to at the college as the ``Hall of 
Buckets.'' Currently, funds are being used to complete a renovation on 
its learning center, correcting major deficiencies, including recurring 
sewer and water issues, handicap accessibility problems, lack of 
effective safety/security measures (surveillance and alarm systems), 
and outdated washroom facilities.
    As a result of more than 200 years of Federal Indian policy--
including policies of termination, assimilation and relocation--many 
reservation residents live in conditions of poverty comparable to that 
found in third world nations. Through the efforts of TCUs, American 
Indian communities are availing themselves of resources needed to 
foster responsible, productive, and self-reliant citizens.

                             JUSTIFICATIONS

    Department of Housing and Urban Development.--Executive Order 13592 
addressing American Indian education and strengthening of Tribal 
Colleges and Universities holds Federal agencies accountable to develop 
plans for integrating TCUs into their programs. TCUs work with tribes 
and communities to address all aspects of reservation life, including 
the continuum of education, housing, economic development, health 
promotion, law enforcement training and crime prevention. Likewise, 
Federal agencies need to work with TCUs. To achieve results, Congress 
needs to hold the administration accountable for strengthening the TCUs 
including their physical plants and that they are routinely included as 
full partners in all existing and potential Federal higher education 
programs. The HUD-TCU competitive grants program, administered by the 
Office of University Partnerships, is an excellent place to start. This 
competitive grants program has enabled TCUs to expand their roles and 
efficacy in addressing development and revitalization needs within 
their respective communities. No academic or student support projects 
have been funded through this program; rather, funding was available 
only for community based outreach and service programs and community 
facilities at TCUs. Through this program, some TCUs have been able to 
build or enhance child care centers, including Head Start facilities 
and social services offices; help revitalize tribal housing; establish 
and expand small business development; and enhance vitally needed 
community library services. Unfortunately, not all of the TCUs were 
able to benefit from this small but very important program. The program 
staff at the Department has no budget to provide technical assistance 
with regard to this program. If a small portion of the appropriated 
funds were to be available for program staff to conduct workshops and 
site visits, more of the TCUs and their respective communities could 
benefit from this vital opportunity. We strongly urge the subcommittee 
to support the HUD-TCU competitive grants program at $5,435,000, and to 
include language that will allow a small portion of these funds to be 
used to provide technical assistance to TCUs, to help ensure that much 
needed community services and programs are expanded and continued in 
the communities served by the Nation's Tribal Colleges and 
Universities.

                  PRESIDENT'S FISCAL YEAR 2013 BUDGET

    The President's fiscal year 2013 budget request provides no funding 
for the University Community Fund, which housed the TCU program and 
other Minority-Serving Institutions (MSI) programs. We respectfully 
request that the subcommittee reject the administration's 
recommendation and continue to recognize the abundant need for 
facilities construction and improvement funds for TCUs and appropriate 
funding for the Tribal Colleges and Universities Program, and the other 
MSI-HUD programs, namely: Historically Black Colleges and Universities; 
Hispanic Serving Institutions Assisting Communities; and Alaska Native 
and Native Hawaiian Serving Institutions Assisting Communities, to be 
allocated competitively within their individual programs.

                               CONCLUSION

    We respectfully request that beginning in fiscal year 2013, 
Congress illustrate its support for the goals of the new Executive 
order aimed at strengthening TCUs by restoring the HUD-TCU competitive 
grants program and provide for technical assistance to help these vital 
institutions improve and expand their facilities to better serve their 
students and communities. Thank you for your continued support of the 
Nation's TCUs and for your consideration of our fiscal year 2013 HUD 
appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Public Transportation Association

    Madam Chairwoman and members of the subcommittee, on behalf of the 
American Public Transportation Association (APTA), I thank you for this 
opportunity to submit written testimony on the fiscal year 2013 
Transportation and Housing and Urban Development Appropriations bill as 
it relates to Federal investment in public transportation and high-
speed and intercity passenger rail.
    APTA's highest priority continues to be the enactment of a well-
funded, multi-modal surface transportation authorization bill. We 
recognize the challenge that the absence of an authorization bill 
places on the Appropriations Committee, yet we must stress the 
tremendous needs that persist for public transportation agencies 
throughout the country, and remind Congress that investment in 
transportation infrastructure puts Americans to work. Failure to invest 
will force private sector businesses in the transit industry and other 
industries to lay off employees and to invest overseas, while increased 
Federal investment addresses the need for much-needed capital 
investments and the growth of the industry. For the Nation's tens of 
millions of transit riders, any cuts will mean less service, fewer 
travel options, higher costs and longer commutes. Americans took 10.4 
billion trips on public transportation in 2011, a 2.31 percent increase 
from 2010 and the second highest annual ridership total since 1957. 
Only ridership in 2008, when gas rose to more than $4 a gallon, 
surpassed last year's ridership, and today gas prices are continuing to 
rise.

                               ABOUT APTA

    APTA is a nonprofit international association of 1,500 public and 
private member organizations, including transit systems and high-speed, 
intercity and commuter rail operators; planning, design, construction, 
and finance firms; product and service providers; academic 
institutions; transit associations and State departments of 
transportation.

             OVERVIEW OF FISCAL YEAR 2013 FUNDING REQUESTS

    First, let me applaud the Senate for its work on passing the Moving 
Ahead for Progress in the 21st Century Act (MAP-21), with strong 
bipartisan support. It has been more than 2 years since the expiration 
of SAFETEA-LU, and we are excited to see progress being made toward a 
new authorization law. However, in the absence of a finalized piece of 
legislation, APTA continues to look towards existing law, 
appropriations, and current budget proposals for appropriations request 
guidance.
    It is important that steady and growing investment continue despite 
economic or fiscal situations, as demand and long-term planning 
requirements for transportation investment continue as well. In the 
Obama administration's fiscal year 2013 budget proposal, along with 
their proposed 6-year surface transportation authorization proposal, 
the President requests $10.8 billion for public transportation programs 
in fiscal year 2013 and would additionally include $50 billion for a 
one-time state of good repair investment program, spread across highway 
and transit programs. The President's proposal also requests $2.5 
billion for high-speed and intercity passenger rail. APTA applauds the 
President's proposed public transportation budget request.
    While we recognize the growing pressures that are impacting general 
fund budget authority allocations, APTA urges Congress to resist 
efforts to make further cuts to general fund components of the Federal 
transit program, such as Capital Investment Grants and research, as 
these are important elements of Federal surface transportation 
investment. In particular, many in the transit industry were 
particularly concerned about cuts in fiscal year 2012 to the Transit 
Cooperative Research Program (TCRP), an important program that produces 
basic research that is used by transit agencies nationwide to improve 
efficiency, safety and technical capacity.
    Finally, we encourage Congress to fund the Rail Safety Technology 
Grants program (section 105) of the Rail Safety Improvement Act (RSIA) 
at a level significantly higher than the $50 million authorized 
annually through fiscal year 2013, to assist with the implementation of 
congressionally mandated positive train control systems. The Federal 
deadline for implementation of positive train control systems is 
rapidly approaching, and to date, Congress has not provided the 
necessary funding to support implementation of this important safety 
program.

                THE NEED FOR FEDERAL TRANSIT INVESTMENT

    In previous testimony to this subcommittee, APTA presented the case 
for increasing Federal investment in public transportation. The U.S. 
Department of Transportation estimates that a one-time investment of 
$78 billion is needed to bring currently operating transit 
infrastructure up to a state of good repair, and this does not include 
annual costs to maintain, expand or operate the existing system. 
Research on transit needs shows that capital investment from all 
sources--Federal, State, and local--should be doubled if we are to 
prepare for future ridership demands.
    APTA's overall funding recommendation continues to be informed by 
our recommendations for surface transportation authorization and the 
estimated Federal funding growth required to meet at least 50 percent 
of the $60 billion in annual transit capital needs. These levels are 
intended to support a projected doubling of transit ridership over the 
next 20 years. It is important to stress that the demand for public 
transportation and the need for Federal leadership will not diminish in 
the months and years ahead. As gasoline prices continue to increase, 
Americans are turning to public transportation in record numbers, just 
as they did in 2008 when gas reached an average price of $4.11 per 
gallon. Public transportation is a vital component of the Nation's 
total transportation infrastructure picture, and with ridership 
projected to grow, dependable public transportation systems will be 
vital to the transportation needs of millions of Americans. While 
Congress continues to consider how to proceed on a well-funded, multi-
modal surface transportation bill, it remains critically important that 
annual appropriations bills support both current and growing needs.

                FEDERAL TRANSIT ADMINISTRATION PROGRAMS

    Capital Investment Grants (New Starts).--APTA was pleased to see 
the Senate continues to support the New Starts program in MAP-21. The 
New Starts program is the primary source of Federal investment in the 
construction or expansion of heavy rail, light rail, commuter rail, and 
bus rapid transit projects. The success of these major, multi-year 
capital projects requires predictable support by Congress and the FTA. 
Congress established Full Funding Grant Agreements (FFGAs) to provide 
this predictability. A continued commitment to Federal investment will 
also influence the willingness of private financial markets to finance 
public transportation projects and it will help ensure that the bond 
ratings will remain high and interest rates will remain low.
    We urge the Congress to recognize the importance of long-term, 
predictable funding for all highway and transit programs, including New 
Starts. APTA believes that the New Starts program should grow at the 
same rate as the rest of the transit program, as it is essential to 
enhancing our Nation's mobility, accessibility and economic prosperity, 
while promoting energy conservation and environmental quality.
    Formula and Bus and Bus Facilities.--APTA seeks to continue funding 
for existing formula programs, including urban and rural formula, small 
transit intensive cities (STIC), fixed guideway modernization, and 
others at a rate consistent with overall FTA funding growth. These 
formula programs address core needs of our public transportation 
systems, and deserve the continued support of Congress. APTA has 
recommended that Congress equitably balance the various needs of the 
Nation's diverse bus systems, including those operated by multimodal 
agencies. APTA has called for modifying the current Bus and Bus 
Facilities program to create two separate categories of funding, with 
50 percent distributed under bus formula factors, and the remaining 50 
percent available under a discretionary program distributed either 
through congressional direction or a competitive grants process.
    MAP-21, the Senate authorization bill, creates a new structure for 
State of Good Repair grants with a new formula program (high intensity 
motorbus state of good repair) that focuses on systems that have a 
large number of bus rapid transit, express bus or other high intensity 
bus routes that may no longer qualify for fixed guideway formula funds. 
The Senate-passed version of MAP-21 also provides a new $75 million 
general fund bus discretionary program authorization. The new program 
provides another source of assistance for bus capital needs beyond the 
new formula funds the bill makes available, with priority consideration 
provided to bus-only transit agencies.
    Transit Research/Transit Cooperative Research Program (TCRP).--APTA 
strongly urges the subcommittee to take a renewed look at the TCRP 
program and restore funding to previous levels. Funding for the program 
was cut by 35 percent in fiscal year 2012 and these cuts are having a 
significant impact in the production of high-quality, peer-reviewed 
research that assists transit agencies, their employees and even their 
governing boards to become more efficient and effective at delivering 
safe, reliable and dependable transit services. The TCRP is an applied 
research program that provides solutions to practical problems faced by 
transit operators. Over the TCRP's 20 years of existence, it has 
produced over 500 publications/products on a wide variety of issues of 
importance to the transit community. Research has produced a variety of 
transit vehicle and infrastructure standards and specifications, as 
well as a variety of handbooks addressing many relevant subject areas 
of interest to the transit community.

                FEDERAL RAILROAD ADMINISTRATION PROGRAMS

    Positive Train Control.--A high priority for APTA within the 
programs of the Federal Railroad Administration (FRA) is the adequate 
funding of Positive Train Control (PTC) through the Railroad Safety 
Technology Grants Program, section 105 of the Rail Safety Improvement 
Act (RSIA) of 2008. APTA is very discouraged that no funding was 
provided for PTC in fiscal year 2012. The RSIA requires that all 
passenger railroads implement positive train control PTC systems by 
December 31, 2015. The cost of implementing PTC on public commuter 
railroads alone is estimated to exceed well over $2 billion, not 
including costs associated with acquiring the necessary radio spectrum. 
APTA is urging Congress to significantly increase the authorized levels 
for implementation of mandated PTC systems.
    Our Nation's commuter railroads are committed to complying with the 
PTC mandate and implementing critical safety upgrades. However, both 
the costs associated with implementing PTC, as well as the challenges 
associated with a technology that is still under development, are quite 
substantial. Recognizing the difficulties related to implementing PTC, 
the House and Senate have both included extensions of the 
implementation deadline in their respective surface transportation 
authorization bills. If enacted, the proposed extensions will assist 
publicly funded commuter railroads in meeting the mandate. However, 
substantial Federal funding is also necessary. Many commuter railroads 
are being forced to delay critical system safety state of good repair 
projects in order to install PTC by 2015. Additional funding provided 
by Congress for the Railroad Safety Technology grants is fundamental to 
the industry's ability to implement PTC.
    High-Speed and Intercity Passenger Rail Investment.--Ridership in 
the overall passenger rail market in the United States has been 
steadily growing, with commuter rail being one of the most frequently 
used methods of public transportation for those traveling from outlying 
suburban areas to commercial centers of metropolitan areas, often to 
and from places of employment, education, commerce and medical care. 
The demand for commuter rail service has also remained strong, with 
ridership on this mode increasing nationally by 2.5 percent in 2011, 
and six commuter rail systems seeing double digit increases in 2011. As 
the current political unrest in many oil producing nations continues, 
more and more commuters are turning to public transportation to escape 
rising gas prices.
    In addition to commuter rail, it is critical that intercity 
passenger rail become a more useful transportation option for travelers 
looking for alternatives to high gas prices and congested road and air 
travel in many corridors. Thirty-two States plus the District of 
Columbia are forging ahead in planning and implementing passenger rail 
improvements. It is more important than ever for the United States to 
invest in its infrastructure as the efficient movement of people and 
goods is essential for sustained economic growth and recovery.

                               CONCLUSION

    We thank the subcommittee for allowing us to share APTA's views on 
fiscal year 2013 public transportation and high-speed and intercity 
rail appropriations issues. APTA looks forward to working with the 
committee to grow the public transportation program. We urge the 
subcommittee to invest in making commuter, intercity and high-speed 
rail safer by fully appropriating the funds authorized in the RSIA and 
ask Congress to continue investing in a high-speed rail system. This is 
a critical time for our Nation to continue to invest in transit 
infrastructure that promotes economic growth, energy independence, and 
a better way of life for all Americans.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to share 
with the Subcommittee on Transportation, Housing and Urban Development, 
and Related Agencies its views on fiscal year 2013 appropriations for 
surface transportation, rail, and community development programs. The 
CONEG Governors deeply appreciate the subcommittee's longstanding 
support of funding for the Nation's highway, transit, transportation 
safety, and rail programs. Federal support is vital to maintain the 
Nation's transportation system, enhance its capacity to meet diverse 
and enormous needs, and contribute to a balanced, integrated national 
transportation system that supports the Nation's current and future 
economic growth. As the Nation's population grows and the economy 
recovers, these needs confront all of us--Federal, State and local 
governments and the private sector.
    We recognize that the subcommittee, in crafting the fiscal year 
2013 appropriations measure, faces a very difficult set of choices in 
this environment of severe fiscal constraints. The current economic 
situation exacerbates the shortfall in the Highway Trust Fund (HTF), 
even as it has contributed to one of the highest demands for public 
transportation in more than 50 years. The national debate on the scope 
and scale of the surface transportation authorization and funding has 
advanced significantly, but has not yet resulted in a new authorization 
framework, including the potential for new approaches to fund, 
restructure and finance highway and transit programs. In spite of these 
challenges, we urge the subcommittee to continue a strong Federal/State 
partnership so vital for a national, integrated, multi-modal 
transportation system. This system underpins the competitiveness of the 
Nation's economy; broadens employment opportunities; and contributes to 
the efficient, safe, environmentally sound, and energy-efficient 
movement of people and goods.

                         SURFACE TRANSPORTATION

    As the surface transportation authorization moves to completion, 
the CONEG Governors urge the subcommittee to fund the highway 
obligation ceiling at the $42 billion level, adequately fund safety and 
innovative financing programs, and maintain at least the fiscal year 
2012 levels for public transit programs. This level of Federal 
investment is the minimum needed to slow the decline in infrastructure 
conditions and maintain the safety of the Nation's highways, bridges, 
and transit systems.
    Continued and substantial Federal investment in these 
infrastructure improvements--in urban, suburban, exurban, and rural 
areas--is necessary to safely and efficiently move people and products 
and to support the substantial growth in freight movement projected in 
the coming decades. The Federal Government has invested significant 
resources in the Nation's transportation systems, and it has a 
continuing responsibility to maintain and enhance the capacity of the 
Nation's transportation infrastructure to keep America competitive in a 
global economy.
    Specifically, the CONEG Governors urge the subcommittee to:
  --Fund the highway obligation ceiling at the $42 billion level;
  --Maintain public transit funding at no less than the fiscal year 
        2012 appropriated levels, with full funding for the current 
        transit formula and capital investment and preserving the 
        historic funding balance between these programs;
  --Ensure that Federal transit funds are released to States and 
        designated recipients in a timely manner; and
  --Expand the use of innovative financing and public-private 
        partnerships to supplement direct Federal funding, including 
        Federal loan guarantees and credit assistance, such as the 
        Transportation Infrastructure Finance and Innovation Act 
        program (TIFIA).

                                  RAIL

    The Governors deeply appreciate the subcommittee's past support for 
intercity passenger rail, and we urge that it again provides funding in 
fiscal year 2013 that will allow efficient intercity passenger rail 
corridors to be developed as part of a national, multi-modal 
transportation system. In the Northeast, continued, adequate Federal 
investment is critical to bring the current system to a state of good 
repair; help expand its capacity to meet the growing ridership; provide 
improved service to communities; attract State, local and private 
sector investments in the Nation's intercity passenger rail system; and 
develop a coordinated, comprehensive vision and plans for future 
services. These investments are essential for the accessible, reliable, 
frequent and on-time service that attracts and retains ridership and 
grows revenues.
    The Northeast has one of the oldest and most extensive multi-modal 
transportation systems in the world. This system faces major congestion 
and capacity constraints which, if not addressed, have the potential to 
curtail future commerce and mobility in a region that is densely 
populated and serves as an economic engine for the Nation. To begin to 
address these capacity constraints, the northeast States have invested 
significantly in the passenger rail corridors of the region--the 
Northeast Corridor (NEC), the Empire Corridor, the Northern New England 
Corridor, and the Keystone Corridor. They have leveraged Federal funds 
appropriated for intercity passenger rail projects eligible under the 
framework created by the Passenger Rail Investment and Improvement Act 
(PRIIA). The intense efforts of the States, Amtrak and freight 
railroads in recent years are now showing results in the Nation's 
busiest rail corridor. However, continued significant investments in 
this corridor network are needed to meet the growing intercity 
passenger travel market. The joint planning and funding efforts over 
the past 3 years are part of an on-going coordinated effort to reduce 
travel times, increase speed, improve service reliability and on-time 
performance, eliminate choke points, improve stations, replace aging 
bridges and electrical systems, install track and ties, replace 
catenary wires, and purchase new locomotives. Among the current 
projects that are employing thousands of workers using American-made 
supplies are the following:
  --High speed rail improvements between New York City and Trenton, New 
        Jersey are boosting capacity, reliability, and speed on a 22-
        mile segment of track capable of supporting train speeds up to 
        160 miles-per-hour.
  --The Harold Interlocking improvement will alleviate delays for 
        trains coming in and out of Manhattan by providing new routes 
        that allow Amtrak trains to bypass the busiest passenger rail 
        junction in the Nation.
  --Installation of high-speed third track near Wilmington, Delaware 
        will allow for increased speeds.
  --Track improvements in Kingston, Rhode Island will add an additional 
        1.5 miles of third track and improve capacity.
  --Access improvements for passengers using Union Station in 
        Washington, DC will improve passenger travel.
    Amtrak.--The Amtrak fiscal year 2013 budget request contains 
specific funding levels provided for operations, capital and debt 
service. These funding levels will enable Amtrak to continue a balanced 
program of adequate, sustained capital investment in infrastructure and 
fleet modernization programs that are vital for an efficient intercity 
passenger rail system that can meet the rising demand for reliable, 
safe, quality services.
    The Amtrak capital request encompasses urgently needed investments 
in infrastructure, more cost-efficient equipment replacement, and 
safety and security improvements in the NEC and corridors across the 
Nation. Timely action on a systematic plan to replace aging equipment 
used throughout the system can help modernize the current Amtrak fleet, 
offer the prospect of more efficient procurement by Amtrak and by 
States, and help stimulate the growth of the domestic rail 
manufacturing sector.
    We also strongly urge the subcommittee to provide Amtrak the 
requested $60 million for the Gateway and other integrated 
infrastructure and equipment projects that will allow improved 
intercity service on the NEC--the backbone of a passenger rail network 
that connects the entire Northeast and extends rail service to 
communities in the South, West, and Canada. These projects are initial 
steps required to address the backlog of deferred investments, and to 
make investments in near-term improvements in track, bridges, tunnels 
and equipment that will increase the capacity of the NEC to offer more 
reliable and frequent intercity service that can deliver more riders to 
their destination in less travel time. Improvements on the NEC can also 
help address the congested highway corridors and crowded northeast 
airports that are a major source of airport travel delays nationwide.
    Intercity Passenger Rail Corridors.--To advance the initial 
investments made by the Federal Government and the States, the 
Governors urge the subcommittee in fiscal year 2013 to fund the 
competitive Intercity Passenger Rail Corridor Capital Assistance 
Program, and to provide provisions that fund the planning activities 
for the development of passenger rail corridors, including multi-state 
corridors. The multi-state planning funds are the source of the monies 
that support the initial work being led by the Federal Railroad 
Administration (FRA) to develop an updated service development plan and 
environmental analysis that reflect the current and projected demand 
for passenger rail service on the NEC. A funding level of $22 million 
is needed in fiscal year 2013 for these analyses which are required for 
any future major improvements for high speed intercity passenger rail 
service on the NEC.
    Since these corridors serve diverse travel markets, we urge that 
these grant funds be available to States to advance plans for reliable, 
travel-time competitive service, regardless of maximum speed 
requirements. In light of the stringent FRA requirements for intercity 
passenger rail grants, we also request the subcommittee to waive the 
current statutory requirement that projects be part of an approved 
State rail plan, since this requirement might curtail thoughtful and 
well advanced efforts already underway by the States.
    Northeast Corridor Infrastructure and Operations Advisory 
Commission.--The Governors thank the subcommittee for providing funding 
for the Northeast Corridor Infrastructure and Operations Advisory 
Commission (Commission). Consistent with its responsibilities defined 
under PRIIA, the Commission is working actively to facilitate mutual 
cooperation and planning among the States, Amtrak, freight railroads, 
and the FRA for intercity, commuter and freight use of the Corridor--
and to also maximize the economic growth and the energy and 
environmental benefits of the larger regional NEC Network.
    The Commission has extensive responsibilities to set corridor-wide 
policy goals and recommendations that encompass passenger rail 
mobility, intermodal connections to highways and airports, energy 
consumption, air quality improvements, and local and regional economic 
development of the entire northeast region. It is also tasked to 
develop a standardized formula to determine and allocate the costs, 
revenues and contributions among NEC commuter railroads and Amtrak that 
use each other's facilities and services. The Commission's work will 
also guide the vision and service development plans that are a pre-
requisite to fund projects that can improve the capacity of the NEC. To 
conduct the assessments required by Congress in a timely manner, the 
Commission needs resources, data and expert analysis that exceed that 
which is currently available through the staff of the States, Amtrak 
and FRA. Continued funding in fiscal year 2013 will ensure the 
Commission's ability to secure all essential resources for conducting 
these assessments.
    Other Programs.--A number of other national rail and intermodal 
programs are important components of the evolving Federal-State-private 
sector partnerships to enhance passenger and freight rail across the 
country.
    The Railroad Rehabilitation and Improvement Financing Program 
(RRIF) can be an important tool for railroads (particularly regional 
and short-line railroads) and public agencies to access the financing 
needed for critical infrastructure and intermodal projects. We also 
encourage the subcommittee to provide funding for the Rail Line 
Relocation program, the Next Generation Corridor Train Equipment Pool, 
and critical rail safety programs.
    We support the continuation of the Transportation Investment 
Generating Economic Recovery, or TIGER Discretionary Grant program, at 
$500 million to encourage investment in multi-modal, multi-
jurisdictional or other road, rail, transit and port projects that help 
achieve critical national objectives.
    Adequate funding is needed for the Surface Transportation Board to 
carry out its expanded responsibilities for intercity passenger rail 
corridor service, including its specific responsibilities under PRIIA 
regarding equitable cost-sharing formulas among States, Amtrak and 
commuter railroads.

                   COMMUNITY DEVELOPMENT BLOCK GRANT

    The CONEG Governors urge the subcommittee to provide funding for 
the Community Development Block Grant (CDBG) program at least at the 
fiscal year 2012 level of $2.95 billion. By enabling States to invest 
in improved local infrastructure, rehabilitated affordable housing, and 
local economic development and jobs, the CDBG program provides needed 
assistance to redevelop and improve neighborhoods and communities 
nationwide.

                               CONCLUSION

    In conclusion, the CONEG Governors urge the subcommittee to:
  --Fund the highway obligation ceiling at the $42 billion level and an 
        expanded TIFIA program;
  --Maintain Federal public transit funding at no less than the fiscal 
        year 2012 appropriated levels, with full funding for the 
        transit formula and capital investment programs, and preserving 
        the historic funding balance between these programs;
  --Fund Amtrak at levels that will support sound operations and a 
        balanced capital investment program, including the NEC capacity 
        improvements;
  --Maintain provisions to fund the Northeast Corridor Infrastructure 
        and Operations Advisory Commission;
  --Provide funding for the Intercity Passenger Rail Service Corridor 
        Assistance Program for corridor planning and capital 
        investment, including provisions for multi-state corridor 
        planning;
  --Provide funding for such national rail programs as the Next 
        Generation Corridor Train Equipment Pool, the Rail Line 
        Relocation program and the RRIF program;
  --Provide $500 million for the TIGER program;
  --Provide adequate funding for the Surface Transportation Board; and
  --Maintain funding for the Community Development Block Grant at the 
        $2.95 billion level.
    The CONEG Governors thank the entire subcommittee for the 
opportunity to share these priorities and appreciate your consideration 
of these requests.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives

           INTEREST OF THE INSTITUTE OF MAKERS OF EXPLOSIVES

    The Institute of Makers of Explosives (IME) is the safety and 
security association of the commercial explosives industry. Commercial 
explosives underpin the economy. They are essential to energy 
production, construction, demolition, and the manufacture of any metal/
mineral product. Explosives are transported and used in every State. 
Additionally, our products are distributed worldwide, while some 
explosives must be imported because they are not manufactured in the 
United States. The ability to transport and distribute these products 
safely and securely is critical to this industry.

                               BACKGROUND

    The production and distribution of hazardous materials is a 
trillion-dollar industry that employs millions of Americans. While 
these materials contribute to America's quality of life, unless handled 
properly, personal injury or death, property damage, and environmental 
consequences can result. The threat of intentional misuse of these 
materials also factors into public concern. To protect against these 
outcomes, the Secretary of Transportation (Secretary) is charged under 
the Hazardous Materials Transportation Act (HMTA) to ``provide adequate 
protection against the risks to life and property inherent in the 
transportation of hazardous materials in commerce by improving'' 
regulation and enforcement.\1\ The Secretary has delegated the HMTA 
authorities to various modal administrations, with primary regulatory 
authority resting in the Pipeline and Hazardous Materials Safety 
Administration (PHMSA).
---------------------------------------------------------------------------
    \1\ 49 U.S.C. Chapter 51.
---------------------------------------------------------------------------
    PHMSA regulates hazardous material (hazmat) transportation so 
closely that it may not be moved any distance, via any mode of 
transportation unless a Department of Transportation (DOT) regulation, 
permit or approval authorizes the movement of a material. This blanket 
prohibition against transportation unless there is a specific DOT 
authorization for that transportation makes efficient consideration of 
such authorizations critical to the industries involved and the 
millions of workers they employ, as well as to the national defense, 
the security of our homeland, and the economy at large. Accordingly, 
how PHMSA performs its regulatory function has a significant impact on 
our industry.

 SIGNIFICANCE OF PHMSA'S SPECIAL PERMITS AND APPROVALS PROGRAM TO THE 
                     COMMERCIAL EXPLOSIVES INDUSTRY

    The permits (designated ``special permits'') and approvals that 
PHMSA issues require applicants to establish that the function to be 
performed provides an equivalent or a greater level of safety than 
would be achieved by conforming to the agency's rules. They are not 
authorizations that allow someone to do something unsafe that otherwise 
would be prohibited under the rules. In both instances, the 
authorizations are issued to specifically identified individuals, in 
response to detailed applications (that are incorporated by reference 
in the authorizations), under criteria that are defined by or at least 
as stringent as the applicable regulations. These conditions can be 
changed by PHMSA at will, with limited rights for affected parties to 
petition for redress.
    The process of applying for and maintaining such authorizations 
involves more paperwork and accountability than is required to petition 
for rule changes. Moreover, holders of these special authorizations 
face the constant risk of having them revoked, suspended, or modified. 
All special permits and many approvals also have expiration dates, 
requiring timely filing of applications for renewal. All require 
reporting of the holder's experience with the authorization so that 
PHMSA can properly evaluate the appropriateness of the authorization. 
The biggest difference between a special permit and an approval is that 
a special permit is an alternative means to comply with the regulations 
in domestic commerce, while an approval may apply to domestic or 
international transportation and can only be issued if there is a 
specific reference to the activity authorized by the approval in 
PHMSA's regulations.
    Currently, there are thousands of special permits and approvals 
within the PHMSA program; many have been renewed without change for 
decades. Entire industries now find themselves regulated through 
special permits and approvals. The commercial explosives industry is a 
case in point. Billions of pounds of bulk explosive precursors and 
blasting agents are transported annually in the United States in 
vehicles operating under special permit. Without these permits, the 
industry would collapse. Likewise, the commercial explosives industry 
is uniquely dependent on PHMSA's approval authority. Manufacturers of 
commercial explosives, as opposed to other classes of hazardous 
materials, may not self-classify these products. The Hazardous 
Materials Regulations (HMR) require that new explosives be classified 
by PHMSA before they are offered for transport. These explosives 
classification approvals are the largest type of approval issued by the 
agency. Prior to approval, the HMR require that explosives be examined 
and tested by a laboratory approved by PHMSA. The testing criteria are 
based on standards recognized worldwide, and typically cost tens of 
thousands of dollars per application. The expense of this rigorous 
testing, both in terms of product sacrificed as well as the costs of 
the tests, is borne by the applicant.
    Congress never intended special permits or approvals to be a long-
term solution for the transportation innovations they authorize. The 
expectation is that proven special permits and approvals that have 
future, long-term use would be incorporated into the HMR. According to 
DOT, no deaths have been attributed to packages shipped under special 
permits or approvals for decades.\2\ PHMSA's failure to incorporate 
proven special permits into its regulations now exposes many industries 
to the current whims of agency action.
---------------------------------------------------------------------------
    \2\ PHMSA claims that a maritime incident in 2008 which resulted in 
three deaths was caused by the violation of a special permit. However, 
the deaths were not the proximate result of a special permit violation. 
Testimony in the resultant litigation showed the deaths were due to 
negligence of a number of parties involved in the shipment.
---------------------------------------------------------------------------
   PHMSA'S FISCAL YEAR 2013 BUDGET INCREASE REQUEST AND USER TAX ARE 
                              UNJUSTIFIED

    As noted above, the HMTA requires that PHMSA's regulations be risk-
based. The agency, in turn, measures the success of its hazmat safety 
program by the number of transportation-related deaths and ``serious 
injuries'' (i.e., hospitalizations) are attributed to the hazardous 
materials.\3\ The agency acknowledges that these numbers ``have 
declined an average of 4 percent every 3 years over the long term.'' 
\4\ Last year, 11 deaths, all due to human error, not a failure of a 
regulatory standard, were attributed to hazardous materials. None, 
since the early 1970s, have been attributed to commercial explosives. 
This contrasts with thousands of deaths annually that result from 
crashes involving large trucks, for example. Despite these compelling 
statistics and the current budget climate, PHMSA requests a 19.7-
percent increase over fiscal year 2012 and 22 new positions, a 12.6-
percent increase in full-time positions (FTP), for the hazmat program. 
Completely unjustified is PHMSA's proposal to devote 24 percent of the 
agency's budget to the processing of applications for special permits 
and approvals where there is no record of death.
---------------------------------------------------------------------------
    \3\ DOT 2011 Annual Performance Report, February 2012, page 9.
    \4\ Fiscal Year 2013 PHMSA Budget Justification, page 3.
---------------------------------------------------------------------------
    While investigations into the Special Permits and Approvals program 
in the last Congress revealed that PHMSA had misplaced many documents 
from applications, none were attributed to a death or serious injury. 
Instead of asking holders of these authorities to provide the missing 
documents, PHMSA proceeded without notice and comment to restructure 
the program from one that took weeks to process applications to one 
that takes months, with double or triple the paperwork, and to 
establish a complex tiered system of applications reviews, including 
costly site visits, based on unpublished and unknown standards. In 
short, the agency created a paperwork empire, with no commensurate 
safety benefit. The cost and delay that have resulted from the agency's 
unfettered administrative actions are impediments to U.S. businesses 
dependent on these authorizations in the global race to market.
    To finance this new special permit and approval processing 
hierarchy, PHMSA requested, as it did in fiscal year 2012, user fees of 
between $700 and $3,000 per application. PHMSA estimates that the fees 
will generate $12 million. This user ``tax'' is without merit:
  --The user fee revenue would be used to underwrite the agency's 
        general fund, although only a fraction of the regulated 
        community are holders of special permits and approvals.
  --No death has been attributed to special permits or approvals since 
        1971 when agency records began to be kept.
  --The Federal Government, not private companies, is the largest 
        holder of approvals and special permits. The Government will 
        pay no fees.
  --Historically, fees have not been imposed on foreign entities for 
        fear of retaliatory fees on U.S. exports giving foreign 
        shippers a competitive advantage in the United States.
  --PHMSA states that it needs funds to implement its Special Permits 
        and Approvals Action Plan. However, PHMSA and the DOT/Office of 
        Inspector General have said that the action plan implementation 
        is complete.
  --Nowhere in the budget request does PHMSA reveal its special permit 
        and approval workload. Yet, the agency has reported to industry 
        that there is no longer a backlog of applications, suggesting 
        that the agency is managing with current resources.
  --PHMSA estimates it processes 25,000 applications per year. At 
        25,000 applications per year, the cost per application should 
        be no more than $533. Using the $700-$3,000 fee range, PHMSA 
        will generate between $17.5 million and $75 million in new 
        revenue; nearly 1.5 to over 6 times the $12 million the agency 
        estimates it will need.
  --Additional Federal workers will have to be hired to administer and 
        collect the fee.
  --It is the business activity, not the size, of a company that 
        determines how many applications may be filed. Many payers will 
        be small businesses.
  --With the fee, there would be no incentive for PHMSA to incorporate 
        proven special permits into the Hazardous Materials 
        Regulations.
  --The fee would be payable per application, creating an incentive for 
        PHMSA to deny or reject applications on trivial pretexts thus 
        generating new fees.
  --Other DOT modal administrations issue approvals or what amount to 
        special permits; none assess fees.
  --This program, which provides safety benefits to the public, has 
        been successfully run for decades without user fees. PHMSA's 
        proposal could be the start of a trend for user fees for other 
        regulatory actions including letters of interpretations or 
        petitions for rulemaking necessary for compliance and good 
        government.
    PHMSA claims that the House Transportation and Infrastructure 
Committee mandated the programmatic changes necessitating the fees. 
However, there is no such statutory requirement, and neither has 
Congress provided PHMSA authority for this user fee. This user fee is 
really a hidden tax on companies that innovate and produce goods needed 
strengthen and rebuild the U.S. economy. The user fee initiative should 
be rejected.
    Rather than be party to the agency's costly empire building scheme, 
including six new FTP this year, the subcommittee should be asking what 
the agency is doing to ``streamline'' the application process; why 
``increasingly stringent monitoring'' of permit and approval holders is 
necessary given the safety record of these entities; how the agency 
hopes to ``accelerat[e] incorporation of special permit[s] into the 
HMR'' when no new resources above baseline were requested to support 
rulemaking activity; and why the agency is devoting scarce staff 
resources to second-guess the results of government-established tests 
performed at government-approved laboratories for explosives 
classification approvals.\5\
---------------------------------------------------------------------------
    \5\ Fiscal Year 2013 PHMSA Budget Justification, pages 68 and 100.
---------------------------------------------------------------------------
                   OTHER BUDGETARY ISSUES TO CONSIDER

    Staffing and Workload.--PHMSA's budget request provides no baseline 
empirical workload metrics to judge PHMSA's performance or the merit of 
the budget request. For example, the request is silent on the causes or 
rates of special permit or approval denials and resubmissions, which 
would drive workload and user fee receipts. The information, when 
provided, is prospective, not retrospective. The agency's budget 
increase is driven by requests for new FTP. These staffing enhancements 
are mis-allocated. The subcommittee should deny these requests:
  --Field Operations (FO).--The number of FO positions has nearly 
        doubled since 2003 to 63 FTP, with a FTP increase of 16 in 
        fiscal year 2010. This year, PHMSA is requesting another 12 
        FTP, with no more justification than that the agency has only 
        been able to inspect ``2 percent of facilities under their 
        jurisdiction.'' However, a 2-percent inspection rate may be 
        appropriate given the ``minimal rate of non-compliance'' within 
        the regulated community.\6\ At the same time, PHMSA provides no 
        retrospective information on the actual number of inspection/
        investigation reports have been filed and how the inspections 
        are categorized.
---------------------------------------------------------------------------
    \6\ Fiscal Year 2013 PHMSA Budget Justification, page 67.
---------------------------------------------------------------------------
  --Radioactive Materials.--PHMSA requests two additional FTP to 
        address emergency threats from radioactive materials. However, 
        quantities of high level radioactive waste or spent nuclear 
        fuel are not moving from nuclear power plants in the absence of 
        a permanent repository. Likewise, PHMSA's concern about cargo 
        containers arriving in U.S. ports with surface radioactive 
        contamination is a Customs and Border Protection concern. This 
        request is without merit.
    Grants Programs (GPs).--PHMSA operates three GPs funded by fees 
assessed on the hazardous materials community. We have long looked for 
evidence of program accomplishment and question the agency's claims 
about achievements ascribed to these programs. In 2005, Congress 
directed the agency to annually provide a detailed accounting of all 
grant expenditures.\7\ In the intervening 7 years, the agency has 
released only one such report, and that report did not provide the 
retrospective accounting necessary to determine if grant recipients 
were using funds appropriately.\8\ This year, an audit of the GPs by 
the Office of Inspector General found systemic mismanagement and misuse 
of grant funds.\9\ PHMSA's request increases the fees allocated to 
administer the GPs from 2 percent to 4 percent although such fees are 
limited to 2 percent by statute.\10\ These programs warrant increased 
oversight by the subcommittee.
---------------------------------------------------------------------------
    \7\49 U.S.C. 5116(k).
    \8\ http://phmsa.dot.gov/staticfiles/PHMSA/DownloadableFiles/Files
/Report_to_Congress_HMEP_Grants_Program 2005_2006.pdf.
    \9\ OIG, DOT, AV-2012-040, January 12, 2012.
    \10\49 U.S.C. 5116(i)(4).
---------------------------------------------------------------------------
                               CONCLUSION

    The transport of hazardous materials is a multi-billion dollar 
industry that employs millions of Americans. This commerce has been 
accomplished with a remarkable degree of safety. PHMSA has silenced the 
voice of the regulated community by refusing to submit its special 
permit and approval ``standard operating procedures'' and ``fitness 
criteria'' to notice and comment rulemaking. The subcommittee needs to 
make difficult decisions about where to save scarce Federal resources. 
Cutting the self-contrived administrative bloat from PHMSA's hazmat 
safety program would be a place to start. In addition to rejecting the 
proposed user fee, we strongly recommend that the subcommittee deny new 
staffing requests as explained, but redirect any new resources to 
enhance PHMSA's information technology and rulemaking capacities.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives

           INTEREST OF THE INSTITUTE OF MAKERS OF EXPLOSIVES

    The Institute of Makers of Explosives (IME) is the safety and 
security association of the commercial explosives industry. Commercial 
explosives underpin the economy. They are essential to energy 
production, construction, demolition, and the manufacture of any metal/
mineral product. Explosives are transported and used in every State. 
The ability to transport and distribute these products safely and 
securely is critical to this industry. At some point, virtually all 
explosives are transported by truck. Among these explosives are 
products classed as Division 1.1, 1.2, and 1.3 materials, which with 
other select hazardous materials, may only be transported by motor 
carriers holding a ``hazardous materials safety permit'' (HMSP) issued 
by the Federal Motor Carrier Safety Administration (FMCSA). According 
to program data, carriers of explosives make up the largest segment, 
roughly half, of the universe of HMSP holders.
    Our industry has maintained an exceptional safety record for 
decades. According to the Hazardous Materials Information System 
(HMIS), no deaths have been attributed to commercial explosives since 
the Department of Transportation began collecting data in the 1970s. 
Despite the safety record of our industry, we have members who struggle 
when it comes maintaining their HMSP qualification.

                         IMPLEMENTATION ISSUES

    We will be the first to admit that we failed to appreciate the full 
impact of the disqualifying out-of-service (OOS) thresholds when FMCSA 
finalized the HMSP rule in 2004. First, the preamble and the regulatory 
text set forth in the 2003 proposal, as well as the preamble to the 
HMSP final rule, describes the agency's intent to issue HMSPs to motor 
carriers with a ``satisfactory'' safety rating.\1\ Those without a 
satisfactory safety rating would be eligible for a temporary HMSP if 
they have ``a crash rate in the top 30 percent of the national average, 
or a driver, vehicle, hazardous materials, or total [OOS] rate in the 
top 30 percent of the national average.'' (Emphasis added.) Second, the 
``or total'' OOS rate suggested that the 30 percent national average 
disqualification would, in the aggregate, disqualify only 30 percent of 
carriers. As FMCSA has implemented this program, however, these were 
not the standards that a carrier could rely on to obtain a permit. 
Instead, no HMSP may be issued to a carrier who performs in the top 30 
percent of each OOS category.
---------------------------------------------------------------------------
    \1\ 68 FR 49737, 49752 and 49753 (August 19, 2003); 69 FR 39367, 
39352 (June 30, 2004).
---------------------------------------------------------------------------
    Since the HMSP program's inception in 2005, we have urged FMCSA, in 
meetings, letters, and petitions, to relook at this program and make 
needed reforms. Over these 7 years, the HMSP program has been plagued 
by administrative missteps including double counting OOS inspections 
and thousands of erroneous denials of applications. Questions remain 
unanswered about the statistical basis used by FMCSA to calculate the 
program's most critical criterion, the hazardous material (hazmat) OOS 
rate. We have documented the inherent unfairness of a system that 
relies on OOS rates. Roadside inspections are not random (nor should 
they be given limited resources), nor are they without the bias of 
personal judgment. Further, the methodology used to determine 
``significance'' of the inspection data lacks statistical confidence. 
Even if a carrier survives this flawed qualification process, it 
provides no assurance that the same level of performance will enable 
the carrier to retain its HMSP as carriers are subject to a relative, 
not absolute, standard of ``safety.'' Please know that we do not object 
to a HMSP; we do object to the bias and uncertainty that this program 
breeds, especially when the program has shown no nexus to safety 
enhancement.

                  SAFETY BENEFITS OF THE HMSP UNPROVEN

    FMCSA estimated that implementing the HMSP program would prevent 
seven hazmat truck-related crashes per year. The agency stated that the 
safety benefits derived from the projected crash reductions would be 
``large because of the number of conventional crashes that may be 
prevented.'' This has not proved to be the case. The experience after 
the nearly 6 years of the HMSP and during the 6 years immediately 
preceding the implementation of the HMSP shows that: \2\
---------------------------------------------------------------------------
    \2\ Data from the Hazardous Materials Information System (HMIS), 
12/13/2011.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1999-2004                 2005-2010                    All hazmat highway incidents
                                                 -------------------------------------------------------------------------------------------------------
                  HMSP material                                                                               1999-2004                 2005-2010
                                                    Crashes     Fatalities    Crashes     Fatalities ---------------------------------------------------
                                                                                                        Crashes     Fatalities    Crashes     Fatalities
--------------------------------------------------------------------------------------------------------------------------------------------------------
Explosives (1.1, 1.2, 1.3)......................            9          \2\           13          \2\  ...........  ...........  ...........  ...........
RAM (HRCQ \1\)..................................            4  ...........            1  ...........  ...........  ...........  ...........  ...........
TIH.............................................           43  ...........           46  ...........  ...........  ...........  ...........  ...........
Methane.........................................            1  ...........  ...........  ...........  ...........  ...........  ...........  ...........
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................           57  ...........           60  ...........        1,909           62        2,190           60
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ It may be that none of these crashes are HRCQ. From the data in HMIS, it was possible to eliminate some incidents that were clearly not HRCQ. Where
  there was doubt the incident was counted.
\2\ The HMIS includes records of two off-highway, non-crash incidents that resulted in fatalities involving materials covered by the HMSP. Both
  incidents involve fireworks stored on trucks, and both incidents occurred after delivery. Consequently, the American Pyrotechnics Association disputes
  whether these incidents are transportation-related. In 2003, four workers were killed after the local government asked that a show for another
  location be removed from the site. In 2009, five workers were killed while setting up a show using a truck as a workroom for assembling the display.

    For HMSP holders, this record highlights the need for an immediate 
reconsideration of the disqualifying standards that are threatening 
their livelihoods. Keep in mind that the vast majority of carriers 
subject to the HMSP are not long-haul, freight-all-kinds carriers. They 
serve niche markets that rely on local, often rural delivery, and 
require specialized equipment. As such, these carriers do not frequent 
routes with inspection stations. Once these carriers get into trouble 
based on the non-random, often subjective OOS calls by inspectors, it 
is virtually impossible for these carriers to accrue sufficient 
``good'' inspections to overcome the ``bad.'' For example, it is not 
uncommon for a carrier to have less than 15 inspections in the 12 
months prior to the expiration of the carrier's HMSP. If two of those 
inspections result in an OOS \3\, it would take 56 ``clean'' 
inspections to requalify the carriers. And, the later into the 12-month 
qualification period the second OOS occurs, the more unlikely it is 
that a carrier could recover. These carriers do not have the option to 
carry non-HMSP freight while working to requalify for a permit. The 
irony is that, when these carriers get into jeopardy, FMCSA does not 
routinely suspend or revoke the HMSP; rather the carrier is allowed to 
operate until it is time to apply for renewal. The regulations allow 
for appeals when permits are suspended or revoked, but not if the 
carrier is applying for renewal.
---------------------------------------------------------------------------
    \3\ This assumes that the OOS citation was corrected issued. CSA 
experience shows that FMCSA's ``Data Q'' process is overwhelmed and 
State ability and/or willingness to expend resources on these 
challenges is a growing concern.
---------------------------------------------------------------------------
                      REQUEST FOR EXPEDITED RELIEF

    Last year, FMCSA accepted a petition for rulemaking from IME and 
other affected industry associations filed to reform the HMSP 
disqualification standards. While we are pleased that FMCSA has 
accepted our petition, we are disappointed that ``the agency has 
determined that this rulemaking should not be initiated until the CSA 
Safety Fitness Determination (SFD) final rule is published, as it will 
be used as the basis for initiating this rule.'' \4\ (Emphasis added.) 
We would like to strongly suggest that the HMSP rulemaking should take 
precedence over the SFD rulemaking. First, the HMSP program is being 
used now as the SFD standard for covered materials. Covered carriers 
that do not meet the contested HMSP standards may be shutdown. Non-HMSP 
carriers do not yet face this outcome. Second, the problematic HMSP 
disqualification standards are based on inspections and OOS 
determinations. These same metrics are expected to be the basis of the 
standards to be proposed in the SFD rulemaking. Third, the HMSP 
regulated community is very small relative to the universe of carriers 
that will be subject to the SFD. We believe FMCSA should immediately 
act to fix the HMSP disqualification standards and export that refined 
SDF model to the larger commercial trucking universe under CSA.
---------------------------------------------------------------------------
    \4\ Letter to IME from FMCSA, November 14, 2011, page 1.
---------------------------------------------------------------------------
    The agency's reluctance to immediately address the shortcomings of 
the HMSP is particularly troubling because implicit in FMCSA's plan to 
address by rulemaking many of the issues raised by industry is an 
acknowledgment of deficiencies with the current program. These 
deficiencies will persist over the intervening years between now and 
the time that they are resolved through the rulemaking process. The 
adverse impacts to the regulated community are undeserved.
    Given these facts, we are concerned that neither legislation nor 
regulation will move fast enough to prevent relatively good carriers 
from losing their HMSP and, as explained, being put out of business 
based on limited data anomalies. We have asked FMCSA to immediately 
address these pressing concerns by issuing an interim final rule (IFR) 
to at least provide for an additional level of fitness review prior to 
the denial, revocation, or suspension of a safety permit until such 
time that the agency proceeds with the full rulemaking based on our 
petition. The additional level of administrative fitness review would 
consider the safety management controls of the applicant or holder not 
just OOS violations rates, and it would provide the applicant or holder 
an opportunity to file a corrective action plan to address identified 
concerns.\5\
---------------------------------------------------------------------------
    \5\ This opportunity should not be available to applicants or 
holders that present an imminent hazard or evidence of a pattern of 
willful and knowing non-compliance with safety regulations.
---------------------------------------------------------------------------
    We have not heard from FMCSA whether the agency would be willing to 
pursue the IFR option we have described. At the same time, it is 
concerning to us that nowhere in FMCSA's fiscal year 2013 budget 
estimate does it reference, let alone discuss, the issues described.\6\ 
Justice will not be served by inattention to these pressing concerns. 
The uncertainty of when FMCSA will be able to carry out the HMSP 
rulemaking coupled with the urgency to take some action based on 
acknowledged program deficiencies compel us to ask the subcommittee to 
deny funds to administer this program until FMCSA provides interim 
measures to ensure that HMSP holders are not denied permits based 
solely on the flawed disqualification standards in place now.
---------------------------------------------------------------------------
    \6\ The HMSP is mentioned once in the Department of Transportation 
Annual Performance Report, Fiscal Year 2011, page 22, ``FMCSA will 
continue to seek to implement programs and regulations that `raise the 
bar' to entry into the motor carrier industry, including. . . expanding 
enforcement of and compliance with the [HMSP] requirements. . . .''
---------------------------------------------------------------------------
                               CONCLUSION

    Neither IME nor its members object to the need for a HMSP. We do 
object to the current standards for disqualification. They are not 
risk-based. Inspection frequency and outcome do not seem to correlate 
to crashes or fatalities. Thank you for your attention to these 
concerns.
                                 ______
                                 
   Prepared Statement of the National American Indian Housing Council

    Chairwoman Murray, Vice Chairwoman Collins and members of the 
subcommittee. I am submitting this statement regarding the President's 
budget request (PBR) for fiscal year 2013 on behalf of the National 
American Indian Housing Council (NAIHC). My name is Cheryl A. Causley 
and I am the chairwoman of the National American Indian Housing Council 
(NAIHC), the only national tribal nonprofit organization dedicated to 
advancing housing, physical infrastructure, and economic and community 
development in tribal communities throughout the United States. I am 
also an enrolled member of the Bay Mills Indian Community in Brimley, 
Michigan, and the Executive Director of the Bay Mills Indian Housing 
Authority. I want to thank the subcommittee for the opportunity to 
submit written testimony for the subcommittee's consideration as it 
reviews the PBR.

       BACKGROUND ON THE NATIONAL AMERICAN INDIAN HOUSING COUNCIL

    The NAIHC was founded in 1974 and has, for 38 years, served its 
members by providing invaluable training and technical assistance (T/
TA) to all tribes and tribal housing entities; providing information to 
Congress regarding the issues and challenges that tribes face in terms 
of housing, infrastructure, and community and economic development; and 
working with key Federal agencies to address these important and, at 
times, vexing issues, and to help meet the challenges. The membership 
of NAIHC is expansive, comprised of 271 members representing 463 \1\ 
tribes and tribal housing organizations. The primary goal of NAIHC is 
to support Native housing entities in their efforts to provide safe, 
decent, affordable, culturally appropriate housing for Native people.
---------------------------------------------------------------------------
    \1\ There are approximately 566 federally recognized Indian tribes 
and Alaska Native villages in the United States, all of whom are 
eligible for membership in NAIHC. Other NAIHC members include State-
recognized tribes that were deemed eligible for housing assistance 
under the 1937 Housing Act and grandfathered in to the Native American 
Housing Assistance and Self-Determination Act of 1996.
---------------------------------------------------------------------------
   BRIEF SUMMARY OF THE PROBLEMS REGARDING HOUSING IN INDIAN COUNTRY

    While the country has been experiencing an economic downturn that 
many have described as the worst global recession since World War II, 
this economic reality is greatly magnified in Indian communities. The 
national unemployment rate seems to have peaked at an alarming rate of 
nearly 10 percent; however, that rate does not compare to the 
unemployment rates in Indian Country, which average 49 percent.\2\ The 
highest unemployment rates are on the Plains reservations, where the 
average rate is 77 percent.\3\
---------------------------------------------------------------------------
    \2\ Bureau of Indian Affairs Labor Force Report (2005).
    \3\ Many of these reservations are in the State of South Dakota, 
which has one of the lowest unemployment rates in the Nation. On some 
South Dakota reservations, the unemployment rate exceeds 80 percent.
---------------------------------------------------------------------------
    Because of the remote locations of many reservations, there is a 
lack of basic infrastructure and economic development opportunities are 
difficult to identify and pursue. As a result, the poverty rate in 
Indian country is exceedingly high at 25.3 percent, nearly three times 
the national average.\4\ These employment and economic development 
challenges exacerbate the housing situation in Indian Country. Our 
first Americans face some of the worst housing and living conditions in 
the country, and the availability of affordable, adequate, safe housing 
in Indian Country falls far below that of the general U.S. population.
---------------------------------------------------------------------------
    \4\ U.S. Census Bureau, American Indian and Alaska Native Heritage 
Month: November 2011. See http://www.census.gov.
---------------------------------------------------------------------------
  --According to the 2000 U.S. Census, nearly 12 percent of Native 
        American households lack plumbing compared to 1.2 percent of 
        the general U.S. population.
  --According to 2002 statistics, 90,000 Indian families were homeless 
        or under-housed.
  --On tribal lands, 28 percent of Indian households were found to be 
        over-crowded or to lack adequate plumbing and kitchen 
        facilities. The national average is 5.4 percent when structures 
        that lack heating and electrical equipment are included. 
        Roughly 40 percent of reservation housing is considered 
        inadequate, compared to 5.9 percent of national households.
  --Seventy percent of the existing housing stock in Indian Country is 
        in need of upgrades and repairs, many of them extensive.
  --Less than half of all reservation homes are connected to a sewer 
        system.
    There is already a consensus among many members of Congress, 
Department of Housing and Urban Development (HUD), tribal leaders, and 
tribal organizations that there is a severe housing shortage in tribal 
communities; that many homes are, as a result, overcrowded; that many 
of the existing homes are in need of repairs, some of them substantial; 
that many homes lack basic amenities that many of us take for granted, 
such as full kitchens and plumbing; and that at least 250,000 new 
housing units are needed in Indian Country.
    These issues are further complicated by the status of Indian lands, 
which are held in trust or restricted-fee status. As a result, private 
financial institutions will generally not recognize tribal homes as 
collateral to make improvements or for individuals to finance new 
homes. Private investment in the real estate market in Indian Country 
is virtually non-existent, with tribes almost entirely dependent on the 
Federal Government for financial assistance to meet their growing 
housing needs. The provision of such assistance is consistent with the 
Federal Government's well established trust responsibility to American 
Indian tribes and Alaska Native villages.

   THE NATIVE AMERICAN HOUSING ASSISTANCE AND SELF-DETERMINATION ACT

    In 1996, Congress passed the Native American Housing Assistance and 
Self-Determination Act (NAHASDA) to provide Federal statutory authority 
to address the above-mentioned housing disparities in Indian Country. 
NAHASDA is the cornerstone for providing housing assistance to low 
income Native American families on Indian reservations, in Alaska 
Native villages, and on Native Hawaiian Home Lands.
    The Indian Housing Block Grant (IHBG) is the funding component of 
NAHASDA, and since the passage of NAHASDA in 1996 and its first fiscal 
year of funding in 1998, NAHASDA has been the single largest source of 
funding for Native housing. Administered by the Department of Housing 
and Urban Development, NAHASDA specifies which activities are eligible 
for funding.\5\ Not only do IHBG funds support new housing development, 
acquisition, rehabilitation, and other housing services that are 
critical for tribal communities; they cover essential planning and 
operating expenses for tribal housing entities. Between 2006 and 2010, 
a significant portion of IHBG funds, approximately 24 percent, were 
used for planning, administration, and housing management and services.
---------------------------------------------------------------------------
    \5\ Eligible activities include but are not limited to down-payment 
assistance, property acquisition, new construction, safety programs, 
planning and administration, and housing rehabilitation.
---------------------------------------------------------------------------
  AMERICAN RECOVERY AND REINVESTMENT ACT AND FISCAL YEAR 2010 INDIAN 
                             HOUSING FUNDS

    NAIHC would like to thank Congress for its important work to 
increase the much-needed investment in Indian housing during the past 
several years. In fiscal year 2010 the American Recovery and 
Reinvestment ACT (ARRA) of 2009 provided over $500 million for the IHBG 
program. This additional investment in Indian Country supported 
hundreds of jobs, permitted some tribes to start on new construction 
projects, and assisted still other tribes in completing essential 
infrastructure for housing projects that they could not have otherwise 
afforded with their yearly IHBG allocations. Tribes have complied with 
the mandate to obligate the funds in an expeditious manner, thus 
helping stimulate tribal, regional and the national economies.
    In addition to ARRA funding, Congress appropriated $700 million for 
the IHBG in fiscal year 2010, the first significant increase for the 
program since its inception. This positive step reversed a decade of 
stagnate funding levels that neither kept pace with inflation nor 
addressed the acute housing needs in Native communities. As you know, 
the Congress did not continue the upward trajectory in Indian housing 
funding and the appropriations have remained flat for each the past two 
fiscal years at $650 million.

 THE PRESIDENT'S 2013 BUDGET REQUEST FOR THE INDIAN HOUSING BLOCK GRANT

    President Obama released his fiscal year 2013 budget request on 
February 13, 2012. The PBR established total spending of level of $3.80 
trillion, up from an estimated $3.79 trillion enacted in fiscal year 
2012. This spending level includes $44.8 billion in budget authority 
for HUD, a 3.2 percent increase above the fiscal year 2012 funding 
level.
    Despite the increase in overall HUD spending, the administration 
has proposed level funding for the Indian Housing Block Grant (IHBG) at 
$650 million for fiscal year 2013. Were the President's budget proposal 
to be accepted, it would mark the third consecutive year that the 
budget would be flat-lined. The budget proposal also includes $60 
million for the Indian Community Development Block Grant (ICDBG), the 
same level of funding that was appropriated in fiscal year 2012, and 
zero funding for the widely acclaimed training and technical assistance 
(T/TA) program. NAIHC respectfully requests that funding for the 2013 
ICDBG be set at $100 million for the much-needed housing, 
infrastructure and economic development activities that the ICDBG 
provides, and that the T/TA funding be no less than $4.8 million.
    The NAIHC is the only national Indian housing organization that 
provides comprehensive training and technical assistance (T/TA) on 
behalf of tribal nations and their housing entities. Because they know 
the value added by NAIHC, the NAIHC membership has voted unanimously 
during each of their annual conventions since 2006 to support a 
resolution that seeks to set aside a portion of their own Indian 
Housing Block Grant funding to support NAIHC's T/TA program. In 
addition, NAIHC members have expressed concerns about the quality of 
training provided by HUD contractors. Again, to ensure high quality T/
TA, the NAIHC should be funded at not less than $4.8 million.
    I want to again express, on behalf of the 271 tribal housing 
programs representing some 463 tribes that make up the NAIHC 
membership, our sincere gratitude for the subcommittee's support. It is 
worth noting that the ARRA funding spend-out rate for tribal programs 
exceeded the spend-out rate of HUD's non-Indian ARRA-funded programs. 
Spending rates for the tribal programs were at the 95 percent level, 
which is fully 10 percent more than the total HUD expenditure rate of 
85 percent. When tribal communities are provided access to much needed 
housing funding, they are able to efficiently and effectively utilize 
these dollars to address the longstanding housing and infrastructure 
needs of their communities. Sustained Federal investment in housing and 
infrastructure for Native peoples is essential to maintaining the 
momentum gained by recent investment.

               OTHER INDIAN HOUSING AND RELATED PROGRAMS

The Title VI and Section 184 Indian Housing Loan Guarantee Programs
    The President's budget request includes $2 million for the Federal 
guarantees for Financing Tribal Housing Activities, also known as the 
Title VI Loan Guarantee program, and $7 million for the Indian Housing 
Loan Guarantee Program, also known as the Section 184 Program. The 
Title VI program is important because it provides a 95 percent loan 
guarantee on loans made by private lenders, which is an incentive for 
lenders to get involved in the development of much needed housing in 
tribal areas.
    The Section 184, Indian Home Loan Program, is specifically intended 
to facilitate home loans in Indian Country. NAIHC believes that, based 
on several years of experience, the PBR for these two programs, funded 
at $2 million for the title VI program as requested in the PBR, but 
respectively request that the funding for the Section 184 program be 
restored to the $9 million level that was enacted for fiscal year 2009.

Indian Community Development Block Grant
    While appreciated, the President's proposal of $60 million for the 
ICDBG is insufficient to meet the current needs for essential 
infrastructure, including sewer and running water, in Indian Country. 
We request that this program be funded at $100 million.

Native Hawaiian Housing
    Low income Native Hawaiian families continue to face tremendous 
challenges, similar to those that tribal members face in the rest of 
the United States. The President's funding request of $13 million for 
the Native Hawaiian Housing Block Grant is appreciated; however, NAIHC 
recommends this program be funded at $20 million. And the budget 
includes no funding for the section 184A program in Hawaii. While it 
has taken some time to get this program started--because lenders are 
not familiar with the section 184A program--providing no funding would 
be a step backward for Native Hawaiian families working toward 
homeownership. We urge Congress to consider this before agreeing to the 
administration's proposal to eliminate funding for the program.

   TRAINING AND TECHNICAL ASSISTANCE AND THE PROPOSED TRANSFORMATION 
                               INITIATIVE

    The President's proposed budget eliminates entirely the much-
needed, exceptional T/TA that has been provided by NAIHC since the 
inception of NAHASDA. The provision of T/TA is critical for tribes to 
build their capacity to effectively plan, implement, and manage tribal 
housing programs. Eliminating funding for T/TA would be disastrous for 
tribal housing authorities and would be a huge step in the wrong 
direction. Tribes need more assistance in building capacity, not less.
    Since NAIHC's funding for T/TA was restored in 2007, requests for 
T/TA have steadily grown. The funding that NAIHC is currently receiving 
is insufficient to meet the continuous, growing demand for T/TA. 
Therefore, we are forced to make difficult decisions regarding when, 
where, and how to provide the most effective T/TA possible to our 
membership.
    The budget request proposes an agency-wide Transformation 
Initiative Fund (TIF) with up to 0.5 percent of HUD's total budget, 
which would draw funds away from essential housing programs, including 
$3.3 million from the IHBG account, ``to continue the on-going 
comprehensive study of housing needs in Indian Country and native 
communities in Alaska and Hawaii.'' While the NAIHC membership believes 
the TIF may have merit, we do not believe that transferring nearly $3.3 
million from the IHBG is a wise or even defensible use of IHBG funds.
    More importantly, the $3.3 million affects funding that has 
historically been appropriated to NAIHC for T/TA. As I have previously 
noted, the NAIHC membership has repeatedly taken the position that a 
portion of the IHBG allocation should be provided to NAIHC for T/TA, 
which is a reflection of their confidence in NAIHC and the continuing 
demand for the essential capacity-building services that we provide. We 
request that funding in the amount of $4.8 million for T/TA be included 
in the fiscal year 2013 budget.

                               CONCLUSION

    NAHASDA was enacted to provide Indian tribes and Native American 
communities with new and creative tools necessary to develop culturally 
appropriate, safe, decent, affordable housing. While we value and 
appreciate the investment and efforts that this administration and the 
Congress have made possible, NAIHC has very specific concerns, 
enumerated above, with the President's proposed budget for the Indian 
housing funding levels and hopes that Congress, with the leadership of 
this important committee, will work with the NAIHC and the 
administration to recognize the acute housing needed that continue to 
exist in tribal communities.
    Consider these needs against a backdrop that includes the following 
observation from the Government Accountability Office (GAO) in their 
report 10-326, Native American Housing, issued in February 2010 to the 
Senate Committee on Banking and the House Committee on Financial 
Services which noted that the following:

    ``NAHASDA's first appropriation in fiscal year 1998 was $592 
million, and average funding was approximately $633 million between 
1998 and 2009. The highest level of funding was $691 million in 2002, 
and the lowest was $577 million in 1999. For fiscal year 2009, the 
program's appropriation was $621 million. However, when accounting for 
inflation, constant dollars have generally decreased since the 
enactment of NAHASDA. The highest level of funding in constant dollars 
was $779 million in 1998, and the lowest was $621 million in 2009.'' 
\6\
---------------------------------------------------------------------------
    \6\ See GAO Report 10-326 at www.gao.gov/products/GAO-10-326.

    The needs in Indian Country have not lessened since this report was 
issued just 2 years ago. In fact, a cursory review of the Department of 
Commerce's Bureau of the Census suggests the needs continue to increase 
along with a growing and ever younger population. In a report prepared 
in November 2011 \7\ the Census reported that:
---------------------------------------------------------------------------
    \7\ See Census at http://www.census.gov/newsroom/releases/archives/
facts_for_features
_special_editions/cb11-ff22.html.
---------------------------------------------------------------------------
  --The Nation's American Indian and Alaska Native population increased 
        by 1.1 million between the 2000 Census and 2010 Census, or 26.7 
        percent, while the overall population growth was 9.7 percent;
  --The median income of American Indian and Alaska Native households 
        was $35,062 compared with $50,046 for the Nation as a whole;
  --The percent of American Indians and Alaska Natives that were in 
        poverty in 2010 was 28.4 percent compared to the 15.3 percent 
        for the Nation as a whole; and
  --The percentage of American Indian and Alaska Native householders 
        who owned their own home in 2010 was 54 percent compared with 
        65 percent of the overall population.
    I wish to conclude this written testimony by thanking Chairwoman 
Murray, Ranking Member Collins, and all of the members of this 
subcommittee for allowing us to express our views and our aspirations. 
NAHASDA is a key element in improving the overall living conditions in 
Native America. The path to a self-sustaining economy is not achievable 
without a robust housing sector and tribal housing conditions will not 
be improved without adequate funding. NAHASDA is not just about 
constructing houses. It is about building tribal communities--
communities where health and safety are a top priority and where 
education can take place. Not only is the tribal economy impacted, but 
so too are the lives of families and individuals who live in 
substandard housing.
    I know we can count on you to support our efforts. Together, we can 
continue the important work of building communities in Indian Country. 
Your continued support of Native American communities is truly 
appreciated, and the NAIHC is eager to work with you and your 
professional staff on any and all issues pertaining to Indian housing 
programs and living conditions for America's indigenous people.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I submit this written testimony to the Senate Committee on 
Appropriations, Subcommittee on Transportation, Housing and Urban 
Development, and Related Agencies, for the committee record. UCAR is a 
consortium of over 100 research institutions, including 77 doctoral-
degree granting universities, which manages and operates the National 
Center for Atmospheric Research (NCAR). I respectfully urge the 
subcommittee to support:
  --The Federal Aviation Administration's (FAA's) Research, Engineering 
        and Development account--$180 million, including $18 million 
        for the Weather Program and $10 million for Weather Technology 
        in the Cockpit.
  --FAA's Facilities and Equipment account--$285 billion which includes 
        $57.2 million for System-Wide Information Management (SWIM) and 
        $23.8 million for Common Support Services.
  --The Federal Highway Administration's (FHWA's) Intelligent 
        Transportation Systems (ITS) program--the full request of $110 
        million which includes $46.1 million for IntelliDrive V-V and 
        V-I Communications for Safety and $15.5 million for Dynamic 
        Mobility Applications.
    Life and property could be spared, and economic performance 
improved across the Nation, if weather information were utilized more 
effectively by decision makers such as airline pilots, personal vehicle 
drivers, and the trucking industry. Over the past two and a half 
decades, the Department of Transportation (DOT), in partnership with 
NCAR and the academic community, has creatively and economically 
developed technologies to foresee weather-related problems and mitigate 
the effects of meteorological hazards, including wind shear, icing, and 
turbulence. Leveraging the expertise of the research community, the FAA 
and FHWA depend on their partners to develop weather-resilient systems 
and infrastructure. I would like to comment on the following programs 
that support continued collaborative partnerships between the DOT, FAA, 
and FHWA and the atmospheric science community:

                    FEDERAL AVIATION ADMINISTRATION

    Current and projected growth in the volume, complexity, and 
economic importance of air transportation clearly demonstrates the need 
for a new paradigm supporting air traffic services in the 21st century. 
Many new factors compound the new century's challenge to safe and 
efficient air operations. For example, aircraft passenger and freight 
load requirements will be 2-3 times higher, increasing use of polar 
routes will introduce new hazards to crews and passengers, and new 
navigational technologies that allow more flexible routing and 
separation of aircraft are not fully compatible with the current air 
traffic control system. Capacity will become an increasingly limiting 
factor at many airports. Efficiency of flight operations en-route will 
become more critical. Since weather conditions seriously affect air 
traffic operations (the cost to divert a flight, for example, is 
upwards of $150,000), the manner by which weather is observed, 
predicted, disseminated and used within air traffic decision processes 
and systems is of critical national importance. Thus, it is critical to 
invest in Federal research and development efforts that will help 
mitigate these costs and increase safety.

           FAA RESEARCH, ENGINEERING, AND DEVELOPMENT (RE&D)

    The fiscal year 2013 request continues important work in current 
research areas, including aviation weather research. The proposed 
budget supports enhanced Next Generation Air Transportation System 
(NextGen) research and development efforts in the areas of air-ground 
integration, weather information for pilots, and environmental research 
for aircraft technologies as well as alternative fuels to improve 
aviation's environmental and energy performance. The following programs 
can be found within the RE&D section of the fiscal year 2013 FAA budget 
request.
    Weather Program.--The goal of the Weather Program is to increase 
safety and capacity, and to support NextGen. A number of aviation 
weather research projects are underway, in collaboration with industry 
representatives, focusing on in-flight icing, turbulence, winter 
weather and deicing protocols, thunderstorms, ceiling, and visibility. 
One example of a system that translates a large amount of weather data 
into significant safety and delay improvements is the Aviation Digital 
Data Service (ADDS). This strong collaboration between the FAA and the 
National Weather Service provides the latest forecasting breakthroughs 
to the entire aviation community to help reduce significant safety 
hazards and major causes of system delays. Using ADDS, accurate 
forecasts of aviation weather can be translated into probable impacts 
to the system. This allows for improved decisionmaking, resulting in 
improved safety and reduced delays.
    I am very concerned that the budget request will not support the 
R&D needs of the Weather Program. The request for this program is down 
from the fiscal year 2010, fiscal year 2011, and fiscal year 2012 
funding levels and is operating at half the level of funding of 10 
years ago. Yet our skies have become more crowded, with more than 
87,000 flights in each day according to the National Air Traffic 
Controllers Association, and the need for this research greater. To 
address the challenges and to meet the research needs of NextGen, I 
urge you to support $18 million, at a minimum, for the Weather Program 
for fiscal year 2013.
    Weather Technology in the Cockpit.--Pilots currently have little 
weather information as they fly over remote stretches of ocean where 
some of the worst turbulence is encountered. At the very least, 
providing pilots with an approximate picture of developing storms could 
help guide them safely around areas of potentially severe turbulence.
    In addition, the most vulnerable pilots, those engaged in General 
Aviation activities, are forced to make critical weather decisions in 
the cockpit without support of a ground-based dispatcher for 
assistance. Weather Technology in the Cockpit is launching a project to 
develop a mobile meteorological capability for use by this community.
    Weather Technology in the Cockpit leverages research activities 
with other agencies, academia and the private sector by enabling the 
adoption of cockpit technologies that provide pilots with hazardous 
weather information and improve situational awareness. I am very 
disappointed that the President's fiscal year 2013 request of $4.8 
million for this small but life-saving program was reduced almost 50 
percent from fiscal year 2012 levels. I urge the subcommittee to fund 
the Weather Technology in the Cockpit program at $10 million, at a 
minimum.

                      FAA FACILITIES AND EQUIPMENT

    Within Facilities and Equipment, I would like to call your 
attention to the following extremely important programs:
    NextGen Network Enabled Weather (NNEW).--Delays in the National 
Airspace System (NAS) are primarily attributable to weather. According 
to the FAA, over the last 5 years more than 70 percent of delays of 15 
minutes or more, on average, were caused by weather. Weather also 
affects safety. Between 1994 and 2003, weather was determined to be a 
contributing factor in over 20 percent of all accidents. Currently, 
most operational decision tools do not utilize weather information 
effectively or at all. Exploring, identifying, and employing better 
methods for data collection and communication will help facilitate the 
flow of operation-specific weather data and information to end users. 
The NNEW multiagency project is dedicated to using and developing 
technologies and standards for NextGen that will support effective 
dissemination of weather data. NNEW will develop the FAA's portion of 
the 4-Dimensional (4-D) Weather Data Cube. This will provide 
standardized information from disparate contributors and locations, to 
a variety of end-users such as air traffic managers and pilots.
    In the fiscal year 2013 request, the NNEW activity is listed under 
System-Wide Information Management (SWIM). Funding for the R&D work 
contributing to the 4-D Weather Data Cube will come from Common Support 
Services within SWIM, requested at $23.8 million. These services 
disseminate aviation weather information in a network enabled 
environment. From fiscal year 2008 to fiscal year 2012, UCAR helped the 
FAA frame and establish this effort under the name NextGen Net-Enabled 
Weather (NNEW). I strongly urge the subcommittee to support the $23.8 
million request for Common Support Services within System-Wide 
Information Management (SWIM) and recommend that Congress retain the 
NextGen Network Enabled Weather (NNEW) title.
    NextGen Reduce Weather Impact.--The current weather observing 
network of the National Airspace System is inadequate to meet the needs 
of NextGen. The NextGen Reduce Weather Impact program will increase 
network capacity, reducing congestion and meeting projected demand in 
an environmentally sound manner. Working with appropriate scientific, 
modeling and user communities, current sensor information and 
dissemination shortfalls will be identified and evaluated. Technologies 
for optimizing and improving automated aircraft weather reporting will 
be investigated to meet NextGen requirements. The Reduce Weather Impact 
portfolio will leverage the NNEW transformational program that will 
interface with NOAA's 4-D Weather Data Cube, for universal common 
access to weather information. To continue the work of NextGen Reduce 
Weather Impact, I urge the subcommittee to increase the fiscal year 
2013 funding for the program from the requested $16.6 million to $43.2 
million.

                     FEDERAL HIGHWAY ADMINISTRATION

    According to the National Highway Traffic Safety Administration, 
there are over six million vehicle crashes on average each year. 
Twenty-four percent of these crashes--over 1.5 million--are weather-
related. Weather-related crashes are defined as those crashes that 
occur in adverse weather (i.e., rain, sleet, snow, and/or fog) or on 
slick pavement (i.e., wet pavement, snowy/slushy pavement, or icy 
pavement). On average, 7,130 people are killed and over 629,000 people 
are injured in weather-related crashes each year. The FHWA Road Weather 
Management Program seeks to better understand the impacts of weather on 
roadways, and promote strategies and tools to mitigate those impacts. 
UCAR and its partners are key contributors the FHWA's vision of 
``Anytime, Anywhere Road Weather Information'' for road users and road 
operating agencies. Central to this commitment is the FHWA's 
Intelligent Transportation Systems program within its Research, 
Technology and Education Program.
    Intelligent Transportation Systems (ITS) within the Department of 
Transportation's Research and Innovative Technology Administration 
(RITA).--The Connected Vehicle Technology (formerly IntelliDrive) 
program remains the centerpiece of the DOT ITS 2010-2014 Strategic 
Research Plan. This program creates partnerships between government, 
industry, academia and others to specify, develop and produce the 
necessary technology to continuously gather and broadcast information 
about a moving vehicle, including its surrounding weather conditions.
    An example of leading edge applications and services supported by 
ITS is the Vehicle Data Translator, a prototype tool being developed at 
UCAR that will give drivers near-immediate information about unforeseen 
hazards. The system, which underwent field testing this past winter in 
Minnesota and Nevada, will inform drivers of what weather conditions 
they can expect to encounter in the next few seconds and minutes, 
giving them a critical opportunity to slow down or take other action. 
Once the system is operational, an onboard digital memory device will 
collect weather data such as temperature, and indirect indications of 
road conditions such as windshield wipers being switched on, or the 
activation of antilock brakes. The processed data will then be used to 
warn motorists about upcoming hazards--everything from icy roads to a 
nearby vehicle that is being driven erratically--and suggest alternate 
routes, if appropriate. The system will also alert emergency managers 
to hazardous driving conditions and help road crews clear snow more 
efficiently.
    To meet its core research and technology transfer mission, and 
support projects like the Vehicle Data Translator, I urge the 
subcommittee to support the requested amount of $110 million for ITS, 
which includes $46.1 million for IntelliDrive V-V and V-I 
Communications for Safety and $15.5 million for Dynamic Mobility 
Applications.
    On behalf of UCAR, I want to thank the subcommittee for its 
leadership in supporting research and development and technology 
transfer programs within the FHWA and FAA and for your commitment to 
ensuring safer, more efficient air and road travel. I urge you to 
support these relatively small but critically important R&D programs 
within the FHWA and FAA fiscal year 2013 budgets.

</pre></body></html>
